HHS/OIG-Audit--"Review of Emergency Assistance Payments Claimed by the District of Columbia Department of Human Services Under Title IV-A of the Social Security Act, (A-03-90-00260)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Emergency Assistance Payments Claimed by the District of Columbia Department of Human Services Under
Title IV-A of the Social Security Act," (A-03-90-00260)
May 8, 1992
Complete
Text of Report is available in PDF format (2.7 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report concluded that the District of Columbia Department of Human Services (DHS) made 13,512 payments
totaling about $16.7 million under the Title IV-A Emergency Assistance to Needy Families with Dependent Children IEA) program
and claimed about $8.3 million in Federal financial participation (FFP). Our statistical sample showed that DHS was not
entitled to about $3.3 million of FFP because 59 percent of the payments reviewed (136 of 230) were in violation of one
or more program requirements. Also, the Administration for Children and Families (ACF) reimbursed DHS about $3.8 million
in FFP, disallowed about $0.1 million, and deferred payment of about $4.4 million pending further review of the claim.